<html>
<title> - [H.A.S.C. No. 112-72] THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/11: PERSPECTIVES FROM FORMER SERVICE CHIEFS AND VICE CHIEFS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-72]
 
                     THE FUTURE OF NATIONAL DEFENSE

                    AND THE U.S. MILITARY TEN YEARS

                     AFTER 9/11: PERSPECTIVES FROM

                         FORMER SERVICE CHIEFS

                            AND VICE CHIEFS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 4, 2011


                                     
[GRAPHIC] [TIFF OMITTED] 





                  U.S. GOVERNMENT PRINTING OFFICE
71-443                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, October 4, 2011, The Future of National Defense and the 
  U.S. Military Ten Years After 9/11: Perspectives from Former 
  Service Chiefs and Vice Chiefs.................................     1

Appendix:

Tuesday, October 4, 2011.........................................    31
                              ----------                              

                        TUESDAY, OCTOBER 4, 2011
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
      11: PERSPECTIVES FROM FORMER SERVICE CHIEFS AND VICE CHIEFS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Blum, LTG H. Steven, USA (Ret.), Former Chief, National Guard 
  Bureau.........................................................     8
Cody, GEN Richard A., USA (Ret.), Former Vice Chief of Staff, 
  U.S. Army......................................................     6
Jumper, Gen. John P., USAF (Ret.), Former Chief of Staff, U.S. 
  Air Force......................................................     4

                                APPENDIX

Prepared Statements:

    Blum, LTG H. Steven..........................................    56
    Cody, GEN Richard A..........................................    46
    Jumper, Gen. John P..........................................    39
    McKeon, Hon. Howard P. ``Buck''..............................    35
    Smith, Hon. Adam.............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
      11: PERSPECTIVES FROM FORMER SERVICE CHIEFS AND VICE CHIEFS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Tuesday, October 4, 2011.
    The committee met, pursuant to call, at 10:08 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The House Armed Services 
Committee will come to order.
    We meet this morning to receive testimony on ``The Future 
of National Defense and the U.S. Military Ten Years After 9/11: 
Perspectives from Former Service Chiefs and Vice Chiefs.''
    This hearing is the third in our series of hearings to 
evaluate lessons learned since 9/11 and to apply those lessons 
to decisions we will soon be making about the future of our 
Force. In the past month, we have heard from former chairmen 
and a vice chairman of the Joint Chiefs of Staff and also a 
panel of outside defense experts. Today, we will hear from a 
former Chief of Staff of the Air Force, a Vice Chief of Staff 
of the Army, and a former Chief of the National Guard Bureau.
    In these capacities, our witnesses were directly involved 
in the management, training, and equipment--equipping of our 
Force. This panel's collective time of service to our Nation is 
over 110 years.
    Thank you very much, gentlemen.
    Their knowledge of the decisionmaking process within the 
Department of Defense, as well as their cumulative years of 
service, will provide this committee with vital information as 
we look to the future of our Force.
    While we continue to make progress in Iraq and Afghanistan 
and with the killing of high-profile terrorists, including 
Osama bin Laden and, most recently, Al Qaeda leader Anwar al-
Awlaki, I remain concerned that our Nation is slipping back 
into the false confidence of a September 10th mindset. 
Believing that we can maintain a solid defense that is driven 
by budget choices, not strategic ones, is a dangerous path for 
our national security.
    I am not arguing that the military can be held exempt from 
fiscal belt-tightening. Indeed, half a trillion dollars has 
been cut from the Defense Department already. The military has 
absorbed about half of the deficit reduction measures enacted 
to date. But these cuts have happened in advance of the 
development of a new strategy for national defense and without 
any changes to the military's roles and missions.
    Even more concerning is that if the Joint Select Committee 
does not succeed in developing and passing another deficit 
reduction plan, an additional half a trillion dollars could be 
cut from our military automatically. It also remains to be seen 
whether or not additional cuts may be proposed by the 
Administration even if the ``Super Committee'' [Joint Select 
Committee on Deficit Reduction] is successful. News reports 
last week indicated that the President is proposing further 
cuts to defense--again, driven by math, not strategy. But all 
this talk about dollars doesn't translate well into actual 
impacts on the Force and the risk to our Nation.
    I hope our witnesses today can help us understand, based on 
the lessons of the last 10 years and their over 100 years of 
experience, what strategic choices we face in the current 
global security environment and how further cuts to the 
military could shape these choices.
    The U.S. military is the modern era's pillar of American 
strength and values. In these difficult times--in these 
difficult economic times, we recognize the struggle to bring 
fiscal discipline to our Nation, but it is imperative that we 
focus our fiscal restraint on the driver of the debt instead of 
the protector of our prosperity.
    With that in mind, I look forward to hearing from our 
witnesses today.
    Now let me turn to our ranking member, Adam Smith from 
Washington.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 35.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate you 
holding this hearing and the hearings that you have held to 
date to discuss the defense budget, our strategic posture, and 
where we go from here in very uncertain times.
    And I am very pleased to have the witnesses we have before 
us today. I look forward to their testimony. I think they can 
add considerable insight as to what those best choices are.
    And I also agree with the chairman that the proposed cuts 
in the defense budget are a big risk, particularly if we do not 
make the cuts necessary to prevent sequestration. If we do not 
make the other changes to the budget that could prevent that, 
you are looking at sizable reductions in our national security 
budget and the Department of Defense in ways that we are not 
ready for and have not anticipated. And I agree with the 
chairman that that is something to be prevented.
    I did not support the debt ceiling agreement in large part 
because all of the cuts were lumped on to the non-entitlement 
portion of the budget. Not only is that a problem for defense, 
that is also a problem for other non-entitlement areas, like 
education and infrastructure, homeland security, things that 
are equally important to the security of this Nation, as is the 
Department of Defense. So we definitely have reason to be 
concerned about the impact of those cuts in the Department of 
Defense.
    I will, however, say that I think resources are part of the 
equation. We frequently hear in this committee folks say we 
shouldn't consider money when we are talking about national 
security because it is just that important. Well, 
unfortunately, it is a fundamental fact of life that the 
resources that you have available to you are part of the 
equation in figuring out what you are going to be able to do. 
And we do have choices, in terms of how this impacts our need 
for revenue, what our tax rates are going to be, how much we 
are going to have to cut from other programs. And I think we 
have to consider that when we are looking at what our national 
security strategy should be.
    But with that said, we need a strategic review of the 
Department of Defense. Much has changed in the last 10 years, 
and much will change going forward. As we begin the drawdown in 
Afghanistan, complete the drawdown in Iraq, as asymmetric 
hybrid threats continue to emerge in unpredictable ways, it is 
very appropriate right now to do a major strategic review of 
where best to spend our money in the Department of Defense.
    I know the Administration is embarking upon such a 
strategic review. This committee, obviously, is doing that. We 
need to make some hard choices and look at why we spend the 
money we spend in the Department of Defense. You know, why do 
we insist on a 313-ship Navy? Why do we have the force 
structure that we have? What do we ask them to do? And, as 
importantly, if we are going to reduce any of that, what are we 
going to stop asking them to do? How are we going to make those 
changes and make sure that those two things match up?
    But I just want to close by emphasizing one of the points I 
made earlier, and that is that the rest of the budget matters 
in this discussion. And I know what this committee would like 
to do is to focus on the Department of Defense and national 
security and simply say that, look, these cuts are unacceptable 
for this reason; and as far as where you get the money, well, 
that is somebody else's problem, but here is why it is 
absolutely critical to our national security that we not cut 
below this level. But I think we do so at our own peril.
    We have to consider the rest of the budget. If we, as a 
committee, are going to present a plan that says the defense 
budget has to be at this level, then it better fit within a 
realistic budget. We better be prepared to talk about where we 
are going to get the revenue to fund that or, if we don't want 
to get the revenue to fund that, how much are we going to cut 
the other programs? Because if those other cuts and that other 
revenue is not politically feasible, then, you know, we can 
scream as loud as we want about the cuts to defense, but they 
are going to happen.
    So we have to talk about revenue, we have to talk about 
where we are going to cut other programs in order to afford the 
defense that this committee decides that we want. So I hope we 
will have that broad discussion, as well.
    And, again, I thank the chairman for having this hearing, 
and I look forward to the testimony from our very esteemed 
witnesses. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    The Chairman. Thank you.
    I am happy to welcome our witnesses here today. We have 
General John Jumper, former Chief of Staff of the Air Force; 
General Richard Cody, former Vice Chief of Staff of the Army; 
General H. Steven Blum, former Chief of the National Guard.
    Thank you, gentlemen, for being here today. We look forward 
to your testimony.
    Let's begin with General Jumper.

STATEMENT OF GEN. JOHN P. JUMPER, USAF (RET.), FORMER CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Jumper. Thank you, Mr. Chairman. It is a pleasure 
to return to these rooms after so many years of absence and to 
see so many familiar faces and to appear with my colleagues 
here. We have shared many very interesting hours before this 
committee in the past together.
    And I would also like to thank members of the committee, 
both, actually, collectively and individually, for all that you 
have done for the soldiers and marines, in particular, but for 
all service members on post-traumatic stress disorder and 
traumatic brain injuries. The process that--processes that you 
have supported and enacted have helped us diagnose and treat 
this very disastrous disorder that our people return from 
combat, and it is very difficult to diagnose. So thank you, Mr. 
Chairman, the committee, and the individuals who have supported 
those efforts.
    Sir, I have submitted my statement for the record, and I 
will just highlight a few points and take very little time in 
doing.
    I think there are several very important things to 
remember, sir.
    One is that, as we look forward to the future in trying to 
predict the world that we are going to be in, we have to admit 
right up front that we are lousy predictors. If we look back 
prior to the fall of the wall [Berlin Wall] in 1988 and you 
look at the newspapers back in that time, we read how the U.S. 
economy will be number two to Japan by the turn of the century, 
we read all these papers, and you can hardly find the names 
``Saddam Hussein,'' ``Slobodan Milosevic,'' ``Osama bin 
Laden.'' These are the very names that went on to shape U.S. 
policy and U.S. military actions for, lo, the next 20 years. We 
are not good at predicting.
    And what that means to people, like the people at this 
table, who wake up, stay up at night worrying about things, the 
things we worry about are the things that we don't know and 
what comes next. And as we look forward to the general 
instability in the world, we have to have a broad range of 
responses available. It is not just about counterinsurgency or 
not just about nuclear deterrence; it is not just about a 
conventional response to traditional threats. It is about all 
of these things.
    And the other thing that we have learned over time is that 
the things that we get drawn into are not things that we would 
have anticipated in any way or even thought that we might find 
ourselves involved with. You can go back to 1994 and the Rwanda 
situation. As you look back on that, we did not get involved, 
but if you look back on that, we probably could have sent a 
rifle company into Rwanda during that crisis and saved 250,000 
lives. We chose not to do it at the time. We did choose to get 
involved in other things: Kosovo, as a result of a genocide 
that was going on at the time; and our participation in the 
last year or so in the Arab Spring movements around the world.
    It is not for the military people to decide what we are 
going to get involved with, but we do have to answer the phone 
when the phone rings and you get that question, what have you 
got for me? And when you answer that question, you have to have 
a broad range of responses and capabilities able to answer the 
Nation's needs.
    All the while, I think it is imperative that we keep our 
eye, Mr. Chairman, on our deterrent capability. And as we draw 
down and we look at cuts, the things that come under pressure 
are the things that, in many times, are the most dangerous. We 
have to--this committee has to help the military leadership 
keep focus on the safety, the security, the reliability of our 
nuclear weapons as we draw down and we maintain this nuclear 
deterrent as part of our strategy.
    As far as roles and missions go, there is a lot the 
military can do to reduce the overlap in its capabilities. I 
have always been a proponent of a written concept of 
operations. The system that we use right now, we go out and we 
start buying things. Before we even are able to articulate how 
we are going to fight, we buy the things to fight with. I have 
always thought that a written concept of operations, joint 
concept of operations, that steered our way in areas of 
redundancy and overlap would reduce a lot of that redundancy 
and overlap that we see.
    Also, as budgets draw down, Mr. Chairman, it puts great 
pressure, internal pressure, on the Services, and it brings out 
the very worst of us with regard to internal strife, 
especially, I might say--and Steve will acknowledge this, I am 
sure--between the Active Duty, the National Guard, and the 
Reserves over resources.
    We have seen in the last 10 years the vital part that the 
National Guard and the Reserves have played in the rotational 
base as we have gone back and forth with our units in fighting 
the war on terror. That support has been unprecedented. The 
committee is going to have to, again, give focused support to 
making sure that as we draw down we achieve that right balance, 
that right and correct balance, between Active Duty, National 
Guard, and Reserve.
    And, of course, the other things that come under pressure 
as we look at further cuts, the first thing that goes is 
training, research and development. I have always said that 
while the enemy may enjoy some asymmetrical advantages, low-
tech asymmetrical advantages, the asymmetrical advantage of 
this Nation is its technology.
    And I hearken back to the young airmen on horses in the 
early days of Afghanistan digitally relaying coordinates up to 
B-52s that were dropping GPS [Global Positioning System]-guided 
munitions. It was the B-52 that was designed in the 1950s, the 
airmen riding the horse that the cavalry gave up I believe in 
1932, the GPS kit that was strapped on to a bomb that came from 
World War II. It was the innovation and the technology that 
allowed us to turn the things that we had into things that we 
needed at the moment, at the time.
    We do not want to give up the ingenuity of our soldiers, 
sailors, airmen, and marines that reinvent things every day 
that work on the battlefield. It is that technology, that 
research and development that usually is the first that is hit 
when you get into a budget squeeze.
    And, finally, I am going to say that--I would like to say 
that there are low-hanging--there is low-hanging fruit out 
there where we can realize savings as a military. There is a 
lot in logistics. If we just unleash the power of best business 
practices and competition, we could find tremendous savings in 
the logistics area.
    Once again, the service chiefs understand and they know 
this, but it is going to take the help of this committee and 
this Congress, sir, to be able to support our military 
leadership as they seek these ways to save and to minimize the 
drawdowns.
    Thank you, sir.
    [The prepared statement of General Jumper can be found in 
the Appendix on page 39.]
    The Chairman. Thank you, General.
    General Cody.

STATEMENT OF GEN RICHARD A. CODY, USA (RET.), FORMER VICE CHIEF 
                      OF STAFF, U.S. ARMY

    General Cody. Good morning, Chairman, and thanks for having 
us. I will be brief.
    On 8 April 2008, I testified before this committee as the 
Vice Chief of the Army. Then, I was honored to represent our 
Nation's one million-plus soldiers, nearly 600,000 of them who 
were serving on Active Duty, Active Guard and Reserve on Active 
Duty, over 250,000 of whom were deployed worldwide, most on 15-
month combat tours, as I testified on issues critical to the 
current and long-term readiness of the Force. Today, again, I 
am honored to testify before you as a private citizen, a 
retired soldier, but one who continues to do what I can to 
support our great soldiers, marines, sailors, and airmen.
    Many things have changed since I testified in April 2008. 
The surge in Iraq has ended, and the Army is on course to 
withdraw some 45,000 soldiers by the end of the year. We have 
surged more soldiers and marines and airmen into Afghanistan. 
The end-strength growth of 65,000 additional soldiers that we 
started in 2004 is complete, but now there is movement to 
reduce the Army's Active Duty end strength, as well as the 
Marines, by significant numbers. The Army has completed the 
restructuring of the Force and just finished the largest BRAC 
[Base Closure and Realignment], MILCON [Military Construction], 
and global repositioning of our Army since World War II, all 
while fighting in Iraq and Afghanistan. Today, our economy is 
in a crisis mode. Probably most importantly, we have now been 
at war for over 10 years, and our ground forces and their 
families are worn thin.
    That said, many things have not changed. In 2008, I 
reported to you that the world we live in is exceedingly 
dangerous. Recent events in Southwest Asia, the Pacific, and 
the Arab Spring only highlight this fact in spite of the 
courageous efforts of our service men and women worldwide.
    I also reported to you that our Army was out of balance; 
that repeated tours of 12 months in combat with only 13 months 
back before deploying again was putting tremendous stress on 
the All-Volunteer Army and their families. Today, that stress 
is still there, as the Army continues to deploy soldiers on 12-
month combat tours with less than 24 months back between tours.
    I testified then that we are consuming our strategic 
readiness, people and equipment, with repeated tours in the 
harshest environments we have ever fought in, and, most 
importantly, that our ability to man, equip, and train for 
full-spectrum operations somewhere else in the world while 
fighting in Iraq and Afghanistan was not possible.
    In 2008, I reported that the cumulative impact of 6 years 
of continuing resolutions was causing significant problems 
within the Services' ability to run their programs, prepare our 
men and women for the next rotation, and to reset equipment--
equipment that had been in combat for over 6 years then, now 
much longer. Today, we enter another fiscal year with a CR 
[Continuing Resolution] while at war. It is one thing to deal 
with the uncertainty of our enemies and what new threats in the 
world we have to prepare for, but it is entirely another to 
deal with the uncertainty of year-to-year budgets and what 
resources will be available to sustain today's fight and reset 
a force that has been at war for over 10 years for the next 
fight.
    As Congress and the Pentagon and the Executive Branch 
wrestle with the budget reduction required by the Budget 
Control Act, the real question with regard to the Services and 
DOD's [Department of Defense] budget is simple: What missions 
do you want our military to continue to perform? What threats 
do you want our military to counter? What levels of readiness 
do you want the military to sustain?
    As General Jumper has said, history has taught us that we 
have not been very good at predicting where, when, and against 
whom the U.S. military will have to fight to protect the 
national interests and the security of this Nation and its 315 
million citizens. Simply put, when we size, scope, and resource 
our military for the peaceful and U.S.-friendly world we all 
hope for and not for the dangerous, hostile, and unpredictable 
world that we actually live in, it is the American service men 
and women and our Nation that we put at risk.
    During my 6 years in the Pentagon as the Army's G3 and as 
Vice Chief, this Congress has always responded to the critical 
needs of our Force, especially during the early years of Iraqi 
Freedom and Enduring Freedom. It is well documented we entered 
this Global War on Terrorism woefully short of equipment, 
resulting from the defense budget cuts in the late '90s after 
the first Gulf war, especially for our Guard and Reserve 
forces, and Congress responded. In my mind, further cuts in the 
DOD budget beyond what Secretary Bob Gates outlined with his 
$400 million is putting our military and our country at high 
risk. That spirit of support by Congress is still needed today 
for our troops.
    Thank you, sir.
    [The prepared statement of General Cody can be found in the 
Appendix on page 46.]
    The Chairman. Thank you.
    General Blum.

  STATEMENT OF LTG H. STEVEN BLUM, USA (RET.), FORMER CHIEF, 
                     NATIONAL GUARD BUREAU

    General Blum. Good morning, Mr. Chairman and Members of the 
committee.
    First of all, a genuine ``thank you'' for the opportunity 
to here appear this morning and hopefully dialogue with the 
Members of this committee on such an important subject, and 
that is the Armed Forces of the United States, particularly 
since 9/11 and the future of those forces.
    Throughout my 42 years in uniform, I can honestly say that 
this Nation has been well served by this committee and its 
predecessors. You have always risen to the occasion.
    The Chairman. General, is your mic on?
    General Blum. No, it probably is not, but I will turn it 
on.
    General Cody. Push to talk, Steve.
    General Blum. Thanks.
    The Chairman. Thank you.
    General Blum. So, for 42 years I served in uniform, and 
during that entire time this committee and the members of this 
committee and your predecessors that served before you have 
always been able to provide outstanding, nonpartisan support 
for our men and women in uniform to ensure that we had the 
resources, we had the policies, and we were asking the tough 
questions that often, frankly, need to be asked in a building 
that gets very complacent with itself and its procedures. And I 
am speaking about the Pentagon.
    So you have been very, very strong partners, and the 
soldiers, sailors, airmen, marines, and Coast Guardsmen of the 
Nation have benefited for at least my time in service from your 
service to the Nation. So I appreciate you having these 
hearings and giving us the opportunity to appear this morning 
before you.
    I will shorten my remarks. I have given you a set of 
prepared remarks for the record, but, first, I will shorten my 
remarks by saying ``amen'' to what General Jumper said. Every 
single word that he said I agree with. And General Cody, every 
single word that he said I support and agree with so far.
    Now, we have not always agreed; the gentlemen at this table 
have not always agreed. We have had some tough, tough dialogue 
getting the United States Armed Forces, in particular the Air 
Force and the Army elements that I had responsibility to 
provide the States' National Guard forces, as a Federal reserve 
of those two great Services, we did not always see eye-to-eye 
to how we did it.
    But we do agree this morning on two very critical points: 
One, our Nation and our Constitution is worth defending. And, 
two, freedom is not free, and you can't get readiness at a 
discount rate. You get what you pay for.
    Today, we face a security environment around the world that 
this retired soldier feels may be the most complex and 
dangerous that we have ever faced in our Nation's history. 
Predictability is not there. The international security 
landscape shifts every day, and every Member in this room and 
those in the gallery have been surprised by world events almost 
daily. So, as a result, our Nation now requires more of its 
Armed Forces than at any other time in the Nation's history. 
What a soldier has to do today, the tasks, the skills that they 
must possess are entirely different than those that George 
Washington needed at Valley Forge, that Ulysses S. Grant needed 
at Gettysburg, that John Pershing needed, that Douglas 
MacArthur needed or Pete Schoomaker or Dick Cody needed from 
their Army in Iraq and Afghanistan and the other 40 nations in 
the world where we are out engaged today in very, very 
dangerous and difficult operations.
    To state the obvious, as Mr. Smith said, this challenge 
does not just lie in the military; it resides in every sector 
of our society. As a Nation, we really do have to find a way to 
do more, efficiently, with less. There is no question about it. 
But to do that job right, I maintain that the national security 
strategy of this Nation has to be independently developed 
without any fiscal constraints. Once you set the strategy, then 
and only then can you make meaningful decisions based on an 
informed dialogue, based on managing and measuring risk. And 
then and only then can we determine how to best accomplish that 
strategy within the existing resources that the Nation can 
provide.
    Certainly none of us at this table think that we are going 
to be able to resource everything and anything that we need, 
and we understand that there will be some risk we are going to 
have to assume. But when we assume that risk, it should be done 
in something--in a different thought process than strictly a 
numbers drill.
    After some very, very difficult rebalancing, 
reorganization, and spending enormous amounts of the United 
States taxpayers' treasury to catch up, we now have the most 
professional and capable total force in the United States 
military that this Nation has ever fielded or the world has 
ever seen. It is unquestioned.
    Ladies and gentlemen, we must maintain this peerless 
military. It is really the lens through which most of the world 
views our Nation. And if they see us as strong, they view us 
much different than if they view us as weak. And I have just 
come back from some international travel, and the way we are 
viewed overseas today is not the way we were viewed overseas 5 
years ago. And if you ask them how they view us 5 years from 
now, it is even more disappointing. We cannot and must not 
allow that to happen.
    We must avoid repeating the past mistakes when simply 
numbers drills and, frankly, parochial interests of the 
Services, of the departments, and of parties and politics 
entered into an equation on national security rather than 
geopolitical realities. We must drive the decisions so that we 
are prepared for the next unpredicted, unexpected threat 
against our freedom and our way of life.
    As this committee deliberates the tough choices that our 
Nation faces, I ask you to consider a new paradigm that is 
being embraced by probably most, if not all, of the 
internationally successful, profit-driven companies in the 
world. These companies have adopted a new paradigm. They size 
their full-time professional staff, whether it is manufacturing 
or sales or scientific development, they size that full-time 
professional staff for the smallest, lowest, steady-state 
business requirement of their business, but they size their 
part-time force, the trained and ready professionals that are 
ready on call, for their most optimistic demand or surge 
capability, market-driven.
    Why do they do this? They do this because they don't have 
unlimited resources, and they want to--they want to husband 
what they do have and save that and at least keep part of it so 
that they can have research and development, they can have 
capital improvement, they can talk about modernization and 
recapitalization and expansion in the business community. What 
they want to avoid is mortgaging the ability to have that agile 
flexibility or to be able to take advantage of an opportunity 
in the market because they have their costs sunk into personnel 
costs, entitlements, benefits, retirement, and health care. 
Although we all at this table agree that those things are 
important, there is going to have to be some balance.
    If you see that model as successful, this soldier, this 
citizen soldier, thinks that that model may be informative to 
this committee, and you should seriously consider this when 
alternatives come out for how we are really going to balance 
the capability we need to have and the force structure and the 
size of the force we need to have and how we have traditionally 
salami-sliced the forces, to get to the acrimony that General 
Jumper was talking about, because the fair share is not always 
fair and it is not even always smart. I would suggest you take 
a look at this model because it does give you a new paradigm to 
examine how we do these kinds of things in a constrained 
environment, and I think it is quite useful.
    I think the strategy argues clearly for an increased 
reliance on the Guard and Reserve as part of the total force. 
For the last 10 years, not only have our men and women in all 
Services performed in a magnificent manner, it is noteworthy 
that the Guard and Reserve, after the extraordinary measures 
taken by the gentlemen at this table, among others, and the 
committee that I am speaking before today, we brought the Guard 
and Reserves from a 1947 structure on September 11th, 2001, 
into the 21st century, to right now they are standing shoulder 
to shoulder with the airmen and the soldiers of the United 
States Army and the United States Air Force. And I would 
challenge anybody in this room to distinguish a Guardsman, a 
Reservist, or an Active Duty member of the military unless you 
interrogated them or asked them specifically where they had 
come from, what they were doing before you saw them in theater 
or you saw them performing their work.
    I don't think you want to take a giant step backwards just 
because of a budget drill and have today's operational reserve 
be forced or relegated into only a Cold War-relic strategic 
reserve role once again. And anything--I might remind you, 
anything you do to decrement or to lessen the capability of the 
National Guard and Reserves, you are basically passing a burden 
down to the governors of this Nation and making their 
constitutional responsibilities and authorities even more 
difficult to protect the citizens in every zip code that you 
actually represent here in Congress.
    If you want to read a little bit more, I would recommend 
General Craig McKinley's recent white paper, published March 
31st, 2011, ``A Great Value Today and in the Future.'' I would 
recommend that to you.
    Last fact before I close: When you call out the Guard and 
Reserve, you do, in fact, call out America. When you are 
considering value, the value of that, ladies and gentlemen, is 
priceless.
    Thank you for what you do for our Nation. Thank you for 
holding these hearings on this most serious and urgent matter. 
And I anxiously will be welcoming any questions that you might 
have. And thanks for the opportunity to contribute in this 
dialogue on this very serious issue. Thanks.
    [The prepared statement of General Blum can be found in the 
Appendix on page 56.]
    The Chairman. Thank you very much.
    Let's consider the impact of funding cuts on end strength. 
We know, from what we have seen so far with the $465 billion in 
the first tranche, there is going to be a significant cut in 
end strength. But in the event of sequestration or a 10-percent 
reduction to the fiscal year 2013 budget request, military 
spending would be reduced by about $55 billion a year, starting 
next October. If the Department chooses to shed end strength to 
meet just part of this goal, we could easily be back below pre-
9/11 levels for the Army and Marine Corps.
    Based on your experience, what would the consequences be to 
the Force and the military readiness by reducing the Army and 
Marine Corps end strength to or below pre-9/11 levels by fiscal 
year 2013? And what are the consequences for reducing the size 
of the Air Force, which is already smaller than the force we 
had on 9/11?
    And one last thing that I have is, one of the things that 
we have talked quite a bit about the last few years but the 
last few months we haven't been talking about is the reset as 
we pull our troops out of Afghanistan and Iraq. Where are we 
going to get the money to reset? How much is that going to 
take? And what effect is that going to have on the Force?
    General Cody. The Chief told me I could take it first.
    I spent 6 years in the Pentagon, Mr. Chairman, working on 
force structure. The first time I testified before this 
committee was 1998, after Task Force Hawk. I stated then for 
the record that I thought we were a 10-division Army with a 14-
division mission. Got criticized quite a bit.
    Interesting to note that in the QDR [Quadrennial Defense 
Review] of 2000, before 9/11, as you say, September 10th, there 
was movement afoot by the accountants and budgeters to cut that 
force from 10 divisions down to 8. That stopped when 9/11 
happened.
    We entered this Global War on Terrorism with a force of 
482,000, a little over 500,000 National Guard, I think about 
200-some-odd-thousand Army Reservists. Our readiness levels of 
those units, combat support and combat service supports from 
the cuts of 1994 through '98 had left those portions of the 
units untrained. Our first-to-deploy units, like the 101st, the 
82nd, the 1st Cavalry Division were fine--3rd Armored Cavalry 
Regiment--but, quite frankly, we didn't have the depth.
    What I have learned in 6 years of doing this was, when you 
take a look at the 1-4-2-1 that is in this committee's think 
piece of, one, you know, how we force-structure, when you put 
in all these different strategies and then you force-size it, 
if you don't put that strategy into motion and put a tempo 
nature to it, you run out of troops very quickly.
    Let me explain. We had a force-sizing construct that got us 
to 482,000 that said we would be fighting one decisive, with 
the ability to swing to another decisive, and we could be in 
four lesser contingencies. That is fine, and so they force-
sized to that. The trouble was, we got into this war, and we 
were there 2003, 2004, 2005. If you remember, in 2004, we were 
so short forces, we had to turn to the National Guard and 
activate and mobilize nine National Guard brigades that were 
not equipped, which meant we had to dip into our strategic 
reserve equipment through the world.
    We have underpredicted every year, and that put tremendous 
stress on the Active Duty Force and on the National Guard 
because of people using these force-sizing constructs and not 
putting it in motion. And today we are a tired Army, today we 
are a tired Marine Corps, today the National Guard is tired. 
But we have built them up.
    I think cuts below 540,000 in the Active Duty force puts 
that at risk again, because we don't know where we are going to 
be 5 years from now. We are in a 10-year war today. It is 
longer than Vietnam. I think yesterday was the high-water mark. 
That is the war we think we are in. Our enemies are in a 100-
year war. And so we have to be very, very careful of these 
force-sizing constructs. I believe you need to force-size for 
mid to worst case. Because, quite frankly, that is what we have 
been executing for the last 10 years.
    I testified before this committee that we predicted in 2004 
and '05 that we would be down to six brigades in Iraq. In 
execution, in year 5 and 6, we are at 19 to 21 brigades. Yet we 
force-structured the budget for going down to six to eight 
brigades. And how did we make it up? You all had to pass 
omnibuses and supplementals, and they were late to the fight. 
That is the danger when you start bringing this force down.
    The other thing I will just say--and then I will turn it 
over to General Jumper and General Blum--when we started the 
All-Volunteer Force in 1973, America's demographics were 
different. And the military kept track of men at the time, 
because that is the way we tracked it, 17- to 24-year-olds. 
When we started the All-Volunteer Force back then, over 90 
percent--almost 90 percent of that demographic, 17- to 24-year-
old males met the minimum mental, physical, and moral standards 
to be in the military. When we started really growing the Army 
and growing the Marine Corps in 2006, 35 percent of that 
population in the U.S. today meets the minimum standards. That 
is a real problem.
    And so, if we cut again and break trust with this force 
that stayed with us for 10 years and then we run into something 
else--as we have talked about, we don't get to pick and 
choose--I don't know if we can grow that force back again. So 
it is a big problem for us.
    General Jumper. Mr. Chairman, I think General Cody's words 
are right on the mark.
    From an Air Force point of view, we see, I think, as you 
have said earlier, the necessity to accommodate--accompany any 
reduction in forces with a strategy that can be understandable 
and enforceable by the military services. If we make cuts 
through the lens of the budget, then we have, in the past, 
always done ourselves an injustice and found ourselves really 
unprepared for what has happened next. And we stand a greater 
danger of doing that now than we ever have before.
    The tempo of the equipment in the Air Force is much like 
that of the Army and the Navy. We have run our--especially our 
airlift and our tactical systems very hard. When this conflict 
first started off, as we prepared to go into Iraq in 2003, we 
had 10 Air Expeditionary Force packages assembled and ready to 
go; they were on a rotational basis. We essentially pulled all 
of those forward to meet the initial requirements to get into 
theater and set ourselves up and had to reset our whole 
rotation base because we used elements of all 10 of those force 
packages.
    If we get into the situation where budgets also dictate our 
relationship with our allies, it is something else we have to 
do from a strategy point of view. Indeed, I do believe that it 
is time to reconsider our relationship with some of our allies 
and our participation in some of our alliances, and those could 
well be restructured. But to lose contact with longstanding 
allies or abandon the common cause that we have established 
over years of time I think would be extremely dangerous and 
would jeopardize our Nation's ability to be a strategic force 
for stability in the entire world, which I think we are.
    And then when it comes to reset, of course the Air Force's 
problem is not nearly as difficult as the Army and the Marines. 
But, again, we have equipment that has been used day-in and 
day-out, deployed, redeployed, with scant time to catch up with 
the proper maintenance and overhauls that are required. When we 
get everything back, a lot of this equipment is going to be--is 
going to require, again, expensive upgrades and overhauls.
    I would reiterate that I think there is a lot of money to 
be saved here by looking at some commercial best practices to 
see how we might go about this. But, indeed, just to reset the 
forces that we have and the equipment that we have is going to 
be--require the support of this committee.
    And so I think that, again, as we draw down, it is going to 
be--have to be with a strategic goal in mind, it is going to 
have to be with the idea that our relationships around the 
world will be modified of necessity, and that we very quickly 
get to dangerous levels that will keep us out of critical parts 
of the world scene that we have always been a part of.
    Thank you, sir.
    General Cody. I didn't answer, Mr. Chairman, the equipment 
reset. I had a brain cramp.
    In 2006 and '07, we had ramped our depots. I will speak for 
the Army depots, the five Army depots, but, certainly, Yermo 
and Georgia depots in the Marines got ramped up also. We moved 
from 5 million direct labor hours when the war started to 27 
million direct labor hours. Our depots actually bailed us out 
of our readiness problems as we grew, and they did unbelievable 
work. And they teamed with commercial, and we actually 
mobilized the depots with the commercial industry to reset our 
equipment.
    We said then, in 2006 and 2007, that we would have to spend 
about $17 billion a year to reset this equipment that has been 
in the worst environments we have ever had, highest OPTEMPO 
[Operations Tempo]. Basically, tanks, Bradleys, Apache 
helicopters--you pick them--night vision goggles, weapons 
systems, where we are putting 15 years of life on them in 1 
year, that equipment all stayed over in Iraq and Afghanistan 
because we had to rotate out equipment, so it hasn't come out. 
It is now coming out.
    Back in 2008, we had five brigades' worth of equipment 
sitting in our depots to be repaired. I don't know what the 
number is today. But when I look at the depot and the reset 
accounts and the O&M [Operations and Maintenance] dollars of 
the military's budget, it is woefully short. And there is a big 
bow wave and a bill to be paid on this equipment when it comes 
back.
    And it will be a readiness issue that a future Chief will 
be in here next year or the year after, saying, ``Okay, you cut 
our procurement dollars, we brought the equipment back, and now 
we are C4 because of equipment.'' And I see that as a very big 
problem.
    General Blum. Again, I find myself in a position of 
concurring totally with General Jumper and General Cody and 
their comments.
    I would only have one other thing to add. The unintended 
consequence is the signal that you send to our adversaries 
because they measure some of our actions as our resolve, our 
national resolve. And I have already told you some of the 
impressions that I have picked up in some recent international 
travel, that there is a perception that our resolve may be 
waning. If that is the perception of our friends and our 
allies, what do you think the perception might be of our 
adversaries or our potential enemies?
    The other signal, again, is that you must understand that 
with the current strategy that we have, any reduction of the 
Force, the total force or any component of that force, only 
increases the stress on the members of that force, because we 
are not yet in any of the Services at the dwell-to-deployment 
cycle that we would like to be. We are not--in other words, if 
we were heavyweight fighters, we are not getting our time in 
the corner between rounds. Sometimes we are going out there and 
fighting two rounds before we even get any time in the corner. 
And that is taking a toll on the Force, and that needs to be 
considered if we are going to sustain the tremendous, 
magnificent military that we presently have.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    The question I want to ask is, where do you see where we 
could make savings within the current budget? And if you look 
at what our current strategies are, our current missions--
accept for the moment that we are going to keep those missions, 
you know, with the anticipated changes in Iraq and 
Afghanistan--you know, are there places we could save money and 
still maintain that mission capability? And then the second 
piece of the question would be, okay, if we can't, what 
missions should we decide not to do in order to find savings? 
Those are the two questions.
    Just to set the context--I set this a little bit in my 
opening statement but didn't drive home the point on where our 
budget is at. I think the points you gentlemen make about the 
challenges to the Department of Defense budget and the missions 
we have asked our uniformed military to perform is correct, but 
there is also a big huge budget challenge. And our budget is 40 
percent out of whack. You know, the amount of money we raise is 
40 percent less than the amount of money we spend.
    And if you accept for the moment that we need to balance 
that budget and that we are not going to bring in any new 
revenue and we can't touch defense, basically what you would 
have to do is you would have to cut everything else in the 
budget by roughly half. To be honest, the ``half'' is a slight 
exaggeration; it is probably 48 percent. That means Social 
Security, Medicare, Medicaid, education, infrastructure--
everything--by almost 50 percent. And I am personally not 
even--I wouldn't begin to be prepared to do that.
    So those are the choices that we face as we put this 
forward. And I think we have to keep that in mind, because 
every portion of that budget can give testimony along the lines 
of what you are talking about, about the devastating impact of 
those cuts, and be somewhat accurate. So we are in a bit of a 
pickle here.
    So I ask the question, again, within our current mission 
set, are there areas where you go, you know what, we could save 
money there, we could do this more efficiently and still meet 
that mission set? Or second question is, what missions are we 
currently funding for that we probably shouldn't be? Are there 
any two areas where you could find savings in--well, in one of 
those two ways or both?
    Thank you.
    General Cody. When you--I mean, it is a dilemma. But when 
you take a look at what has happened in the last 10 years, even 
with Secretary Rumsfeld, Secretary Gates, and now with 
Secretary Panetta, the military has already cut some 240 
programs across the board to shift the weight of the Force. We 
were a big, lethargic force, better set for the cold war, not 
set as well for asymmetrical and irregular warfare. And so we 
did it while we were fighting the war. We actually restructured 
the entire Army. The Air Force restructured. We restructured 
the National Guard into a better dual-purpose force that could 
be operational.
    The problem was, we did it, Mr. Congressman, on the fact 
that we already were in a hole from 1994. I mean, from '94 to 
'98, even to '99, it was almost a procurement holiday. And so 
you had two things: You had a force that wasn't sized for the 
threats of the----
    Mr. Smith. If I may, General, I accept all that. You know, 
we are where we are.
    General Cody. Yeah.
    Mr. Smith. The question is--I mean, it seems to me what the 
three of you gentlemen are saying is that there is no level of 
cuts, there is nothing in the current military that can be cut. 
Let me put it slightly different: Not that there is nothing in 
the current military that could be cut; we can't spend less 
than we are currently contemplating. In fact, we should spend 
more.
    General Cody. No.
    Mr. Smith. Is that accurate? I mean, it leads to 
implications, but----
    General Cody. No.
    Mr. Smith [continuing]. That is where we have to start.
    General Cody. No, no. There are cuts to be made. I mean, 
before even the Budget Control Act, Secretary Gates and the 
Services already ponied up something like $400 billion. While 
we are fighting a war, while we have 100,000 troops in 
Afghanistan and while you had something like 80,000 troops at 
the time in Iraq and other commitments across the world, he 
said, ``I can find $400 billion worth of efficiencies. Cut back 
on these programs.'' We only have one new Air Force airplane on 
the drawing board for the first time in years, compared to some 
of our competitors. So that was being done.
    To tie the whole or half the weight of the budget control 
problems that this country has put itself in to a military who, 
by the way, has been trying to police itself up very--in my 
mind, tough love down there in terms of budget cuts, the years 
I was there, while we were fighting a war.
    I think there are more places you can go, but I warn that 
if you are talking about significant cuts to end strength, if 
you are talking about significant cuts to resetting the Force 
and not----
    Mr. Smith. Understood. Do you----
    General Cody [continuing]. And not maintaining the 
program----
    Mr. Smith. Right.
    General Cody [continuing]. I don't know where we are going 
to be if something goes wrong.
    Mr. Smith. Understood. Do you have--do any of you have--you 
say there are more places. Do you have specific ideas?
    General Cody. Yeah, there are some more places, but I don't 
see them as significant as the $400 billion that has already 
been put on the table. In fact, I am a little nervous about the 
$400 billion.
    Mr. Smith. That is the gist I am getting.
    General Cody. Yeah. I mean, listen, this is tough. This is 
about choices as a Nation. Unfortunately, we don't get to pick. 
And this is, as Steve Blum has said--and we can go talk to 
historians--I think this world is more dangerous than at any 
time in modern history.
    Mr. Smith. Do you think it is possible to meet those 
national security needs that you have outlined without 
increasing the revenue that we have in the Federal Government?
    General Cody. I am not an economist. I think, at some 
point, we are going to have to ask, how much is America sharing 
the burden? I mean, I know everybody--you know, we have 
unemployment problems, we have all kinds of problems. But, 
quite frankly, when you talk to soldiers and you talk to 
families, they have been carrying this burden for 10 years, a 
heavy burden, financially as well as separations and everything 
else.
    And, you know, we have to wake up and realize this is a 
terribly unfriendly world for us right now and extremely 
dangerous. And so, if we have to tax more, I am all for taxing 
everybody. You guys will have to figure out what it is because 
I am not an economist.
    Mr. Smith. Right.
    General Cody. But it is not going to get better. Putting 
our fiscal house in order is important, but we need to be very, 
very careful about the choices and chances we take with our 
national security right now.
    Mr. Smith. Thank you.
    I yield back.
    General Jumper. Sir, may I add that, as Dick says, the 
Services are right now over there putting together plans to 
deal with this $400 billion-or-so cut, whatever it turns out to 
be.
    We have also given up, in the last--in the last 10 years, 
$46 billion worth of research and development through cancelled 
programs, things that were scheduled to be--come in to 
recapitalize our forces that have been cancelled, major 
programs. Just the research and development and where we were 
in those programs when they were cancelled added up to $46 
billion.
    Having said that, I do believe there are places we should 
look. I think that we should take a serious look at our 
tactical nuclear program, our tactical nuclear forces as a part 
of our NATO [North Atlantic Treaty Organization] alliance and 
how much of that we really need. As I said before, I think we 
could take a look at how much forward stationing we really need 
as we relook at the structure of our alliances around the 
world. And then I think, again, in the area of logistics, I 
think within the spirit of the air logistics centers and the 
depot 50/50 sharing rule, I think we could find ways to 
restructure to let industry best practices in and save 
ourselves a tremendous amount of money as we look forward to 
resetting.
    But as Dick points out, when you look at this in proportion 
to the problem we have, these are certainly things we all 
should do--a lot of this is low-hanging fruit--but it takes a 
lot of courage, a lot of support from this committee. As 
uniformed military leadership sits at this table and asks for 
your support to do tremendously unpopular things, they are 
going to need your support to do it in order to take advantage 
of even these small actions that might be--that might be 
helpful in the--in reducing the burden.
    Still in all, the problem you point out, Congressman Smith, 
is one that we all have to be concerned with, and that is this 
tremendous burden that has to be paid for in some way. You are 
exactly right.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    I first have a question for General Blum for my colleague 
Frank LoBiondo, who can't be here. General Blum, could you 
please tell us--give us your thoughts on how the Air Force 
could be better utilizing the Air National Guard's fighter 
fleet in terms of transferring missions and getting them newer 
iron, while reaping the benefits of overall cost savings?
    General Blum. Thank you. Let me see if I can get this 
microphone to come on.
    Thank you for the question. And Congressman LoBiondo's 
question gets, actually, to the business model that I talked 
about a little bit earlier.
    The good news with the Guard and Reserves is that they are 
now competent, professional, and, actually, when they are on 
duty with their Active Duty counterparts, you are talking 
equality in performance and capability. Some argue that they 
bring civilian-acquired skills and that makes them, in some 
mission sets, even more valuable. I am not making that argument 
right now, although I could.
    What I am suggesting is, for the routine missions--for 
instance, if you want to expand the capability of the Air 
Force, airplanes cost what airplanes cost. It isn't any cheaper 
for a National Guard pilot to fly them than an Air Force pilot 
to fly them, as far as what the fuel costs or what the 
operating hours cost or what the cost of the airplane is. Where 
you gain your efficiencies there is you are only paying that 
pilot to fly the plane when he is flying the plane; you are not 
paying him 365 days of the year or the days that he is not 
flying.
    And so, you could maintain--you could make an argument--you 
could maintain three to four pilots in the Air National Guard 
essentially available to fly that plane, owned and operated by 
the United States Air Force on call, for the cost of one pilot 
in the Air Force. And you could also make the argument that 
that pilot may end up being--tends to be a more experienced 
pilot because they serve longer and they retire later, and so 
you basically get a longer shelf life from them.
    So what it does is it gives you a personnel model that does 
get to what Mr. Smith is talking about and how do you do more 
with less? In other words, okay, if I am going to do with this 
all-Active Duty Air Force, you are going to pay a dollar for 
every, you know, you are going to pay full amount for that 
pilot to be on duty every single day, and he isn't going to fly 
every day. But when you do it with the Guard or Reserves, you 
are only paying that pilot for when he is actually in the 
cockpit and performing the mission, essentially. There are 
other times you pay him for training and administrative and 
medical exams and that kind of thing, but the cost is roughly a 
magnitude about three to four to one. In other words, you can 
get three or four Guard or Reserve people in the Air Force for 
what it costs for a full-time Air Force person.
    Now, that doesn't mean you don't need a full-time Air 
Force. Even as the chief of the Guard and Reserve, I was also--
I mean, the Guard, I was also a U.S. Northern Command and joint 
combatant command, and there is a very legitimate need for a 
standing Air Force and an Active Duty Air Force. And, you know, 
you are going to have to balance the risk versus the reward, 
the benefits against the disadvantages. And there are a few 
disadvantages.
    But if you are just looking at how do you basically expand 
the force without exponentially increasing the costs, then I 
would say an increased reliance on the Guard and Reserve is 
something that this committee ought to really take a pretty 
serious look at, because there are some efficiencies there. But 
I don't want to say, and I won't say, that you don't need an 
Active Duty Air Force of substantial size so that it can handle 
the steady state, so that you are not disrupting and 
interrupting citizen soldiers needlessly. But on the other 
hand, if their national strategy cannot be met by the national 
resources, then you are going to have to look at different 
business models than what we have looked at in the past.
    What General Jumper alludes to is what will possibly 
happen, sir, if we get--not we, because we are retired--but if 
the current people in the positions that we recently held get a 
mandate, what likely will occur in the building is that there 
will be a fair sharing, what they--quote, unquote, ``fair 
sharing'' of cuts against the active force, the Guard force, 
and the Reserve force. And so what we will do is we will cut a 
slice of the pie out of the Army and that will cost full value 
because they are full-time people. And then you'll get--let's 
say that value is X. And then we will do the same pie slice or 
a different pie splice out of the Guard or Reserve, and that 
will cost X-minus because they don't cost the same; frankly, 
they cost less.
    So you will actually get less, you will harvest less by 
that slice than you will in the Active Duty slice. But what it 
will really start is the Yugoslavian model of an army 
disintegrating into three different armies and fighting itself, 
and the Air Force doing the same, because all three of us have 
seen this ugly dynamic happen now through our whole adult 
careers.
    That should be avoided. It doesn't serve the Nation well; 
it doesn't serve the members of the Armed Forces well; and it 
doesn't serve the American citizens well.
    So to answer your colleague's question directly, I will 
repeat what I said. I think a careful examination of the risk 
versus reward and the value of having an expanded force and an 
increased reliance in the Guard and Reserves--it doesn't allow 
you to get airplanes cheaper, it doesn't allow you to operate 
them cheaper, but it does cut down your personnel costs, and 
they are significant in a volunteer professional force.
    General Jumper. Sir, if I might jump on to these comments. 
Is that permitted?
    The Chairman. We are over time. We will get back to you. 
Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank you for the service that you are doing for the country 
and Congress by having these hearings.
    I think there is insufficient attention being paid to the 
fact that if the Special Select Committee does not come to an 
agreement, we are facing certain automatic cuts in the 
neighborhood of half a trillion dollars over a 10-year period 
to the Defense budget.
    You can argue that that is a good idea or a bad idea, but 
to not even take into account the argument as to whether it 
should happen or not is very important. And the fact that you 
are having these hearings is focusing attention on that, and I 
thank you for that.
    And I thank the gentlemen on the panel for their incredible 
service to our country. I can't express enough how grateful we 
are for the lives you have given to your country and how well 
you served.
    I want to ask a question that is not a rhetorical question. 
I do want you to answer as well as you can.
    In the 10 years since 2001, if you take out the overseas 
contingency operations, put aside all the costs of the wars in 
Iraq and Afghanistan, in real dollar terms the core Defense 
budget is 40 percent higher than it was in 2001.
    Our end strength is essentially the same as it was in 2001. 
Our number of ships and airplanes is essentially what it was in 
2001. A little different, but not much different. Now, about a 
fifth of that cost, that 40 percent increase, has gone to 
increased compensation for uniformed personnel and civilian 
personnel. Where did the rest of the money go? What did we buy 
for that money?
    General Cody. I can take that question, Congressman. 
Because a lot of it went to the Army to equip combat, combat 
support and combat service support soldiers for a 360-degree 
battlefield. That was in the procurement accounts. It was also 
to equip and bring up to combat status the equipment in the 
National Guard and Reserves. I can give you about--I mean, I 
dealt with this every day for 6 years. Radios the Guard didn't 
have because they weren't secure, we didn't buy them so we had 
to get them upgraded. The night vision goggles, they had the 
old night vision goggles and we had to buy them. But we also 
had to buy them for everybody, because there was no line where 
you had rear echelon and you didn't have to worry about 
protected lines. Everybody was in the battlefield.
    Jessica Lynch's convoy that got hit was a telling moment 
for all of us that combat service support troops need to be 
equipped as well as the combat troops. We have a moral 
obligation if we are going to put troops into harm's way that 
they are the best equipped, best led, and best trained.
    That generated gunnery. Before our combat soldiers fired 
gunnery three or four times a year; our combat service support 
people didn't. We had to bring everybody up to that.
    Mr. Andrews. General, all the things you talk about I think 
have essentially unanimous support on this committee, because 
we understand the urgency of outfitting our troops properly. 
But, you know, some of it, the GAO [Government Accountability 
Office] said that $296 billion of that money went to cost 
overruns in 27 major weapon systems. You know, R&D [research 
and development] phase is exploding. As I was looking at data 
on the SBIRS program, the Space-Based Infrared Program, the 
per-unit cost of that program has quintupled since the program 
began, which, you know, means we are going to spend five times 
as much money when we actually buy the copies of it in the end.
    What suggestions do you have as to ways that we can curb 
this voracious appetite for cost overruns in major weapons 
systems?
    General Cody. Well, I think, one, as I look back on it--
first off, you are right, there have been some Nunn-McCurdy 
breaches and large cost overruns in space programs, big 
platforms and things of that sort.
    You know, quite frankly, the predictability of the budget 
each year causes problems not only for the program managers 
that are running these things, but also for the industry that 
is trying to predict what their costs are going to be.
    I can remember on the joint strike fighter when they 
rescoped it several times, as they rescoped that program, the 
costs went up. I am not an expert in that acquisition process 
for sure. I have been on the receiving end of it.
    Mr. Andrews. The unit cost on that has gone up by almost 
double since that program started.
    General Cody. I think, you know, what Secretary Carter is 
doing in looking at these things is the right thing to do. But 
I also want to go back to the fact that during these 10 years, 
we cut several programs, and really lightened and refocused the 
Force in ways that, quite frankly, if we hadn't been at war, we 
wouldn't have done. And we restructured the Force and we 
equipped the Force with what is really needed.
    And so the fiscal overruns and the anecdotes of this 
program or that program are interesting, but when you take it 
in the whole, DOD has done a pretty good job in the last 10 
years of policing up some of these things.
    Now there are ones that stick out like a sore thumb, and I 
think you ought to deal with that as you can. But we do have a 
moral obligation every day. If we are going to send men and 
women into combat, they better be the best led, they better be 
the best equipped. We don't want to go into a fight with 
parity.
    Mr. Andrews. I see my time is up. I would completely agree 
with you. I would also say we have a moral obligation to 
taxpayers to be sure that we paying value for what we--
absolutely need to equip the troops with what they need. But we 
have a moral obligation to the taxpayers to show that we are 
not paying $3 for something we could buy for a dollar. Thank 
you, Mr. Chairman.
    The Chairman. Thank you for your kind words about holding 
this hearing. We are also on the Education Committee, and you 
look at the dollars that have been spent on education over the 
last 10 years, 20 years and then look at the return and how the 
education scores and everything else have gone down, we have 
got problems not just at the DOD, we have got problems across 
the whole of Federal Government spending that we also really 
need to look at.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and as I begin, I want 
to thank Congressman Andrews for his very heartfelt statement 
about our chairman, his bipartisanship, and how indeed this 
hearing is important and the tradition of this committee truly 
has been to support our military, to defend our country. And I 
see the primary function of the national government as national 
defense.
    Also, I am really grateful to see General Blum and General 
Cody here. I have had three sons serve in the National Guard--
one for a year in Iraq--and it was an extraordinarily 
meaningful experience to him to help the American people at 
home by defeating the terrorists overseas.
    And I am also grateful, General Jumper, that I have a 
nephew in the Air Force, so I am covering you. And I know of 
your leadership, but also we are a joint service. My number two 
son is a doctor in the Navy who served in Iraq. So again, thank 
you for what you do.
    And indeed as we are talking about the future of national 
defense, for each one of you beginning with General Blum, 
because you indicated the dangerous environment, the no 
predictability. I certainly agree with the statement that we 
are in a 100-year war. The statement has been that we have the 
watch, they have the time. That is what they think. I believe, 
ultimately, the American people do have resolve.
    Could you, each one of you, indicate what you see as the 
biggest threat to the United States and the American people 
today?
    General Blum. I think the biggest--are you asking me to go 
first on this?
    Mr. Wilson. Please, absolutely, General.
    General Blum. The biggest thing that I worry about frankly 
is complacency and being numbed. It almost becomes a constant 
background noise, because so few of U.S. citizens really are 
engaged in this conflict.
    It is the smallest percentage of any conflict we have ever 
had in the history of our country, when you think about it. 
Those that are defending our freedom are guaranteeing or 
ensuring our way of life, and the fact that you can do what we 
are doing in this building and what we do outside, that burden 
is being carried by an extraordinary low percentage of the 
American people.
    And frankly, the Guard and Reserve provide the connective 
tissue so that our Armed Forces, as magnificent as they are, 
and as trained and professional and dedicated and patriotic as 
they are, don't become viewed by the American people as a 
foreign legion or a mercenary unit.
    That is why I would do absolutely nothing to lessen the 
connectivity to the American people through the Guard and 
Reserves, because business cases will cause you to consolidate 
Active Duty bases, make them more efficient. Where they are 
gets more and more away from the general population. What they 
do behind those gates is pretty much ``who cares'' to the 
general population unless they make their living off of what 
goes on in there.
    And the sons and daughters like mine and yours, and those 
in the room that have members that are serving, I don't want 
them disassociated with the American people. And I think the 
best insurance policy for when making sure that the American 
people are in this fight--look, I will give you examples. Dover 
Air Force base in Delaware, if they deploy, nobody in Delaware 
really knows where they went or what they did or if they are 
gone. But if the Delaware Guard goes, the Delaware Air Guard 
goes, everybody in Dover knows all about it, or everybody in 
Newcastle knows all about it.
    If you go to West Virginia, there is no Active Duty in West 
Virginia, so the only connectivity to our Armed Forces in West 
Virginia is the Guard and Reserve, and there are many States 
like that.
    So the footprint to gain efficiencies that that we all 
want, our Department of Defense to be efficient and cost-
effective, there are downsize risks to that. An All-Volunteer 
Force means, you know, okay, go over there. But when you send a 
Guard unit or Reserve unit, the whole community goes. And they 
are there while they are there and they support them while they 
are there.
    So that is one of the big reasons that I say the thing I am 
most afraid about in a long war with United States where 
everybody doesn't have somebody in this, very few of us do, is 
that we get complacent and it becomes--we get disconnected from 
the American people. That is my greatest fear. Because if you 
keep the American people in this, and you keep the national 
focus on what is going on, then I don't think we have anything 
to fear. I think the enemy better be very fearful.
    But if the American people get disassociated from this, 
either from fatigue or numbness to it, or because they don't 
have a personal stake in it, I think it is a terrible, terrible 
danger. So that is why I say an increased reliance on the Guard 
and Reserve is not only economically smart, it is really a 
strategically imperative--it is a strategic imperative if you 
are going to maintain a volunteer force.
    Mr. Wilson. Thank you.
    The Chairman. Thank you. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And I appreciate it as 
well having the hearings. I think one of the concerns I have is 
sometimes there isn't the opportunity for give and take on a 
number of these issues. And so I would hope that in addition to 
the hearings, maybe there is some way that we can also have a 
greater role as we move into this process right now. And I 
thank you all very much, again, for being here and for your 
service.
    And, you know, along with that, you have been around a long 
time. You have been to these hearings for many, many years. You 
have probably felt a number of frustrations as you see some of 
the decisions that are made, whether they are tactical or 
strategic. Could you share with us--is there anything that you 
feel that would be helpful as we move forward and want to play 
a role in these discussions, because we think it is so critical 
that it is not just a knee-jerk decision that is made regarding 
these cuts. And I am not suggesting that they will be, but I 
think you know how important it is to really be thinking on the 
front and back end. You know, what is going on here? What are 
the unintended consequences and how do we make sure that we do 
the right thing?
    Is there anything in your history of being so engaged at 
this level that you could share that would be helpful as we 
move forward?
    General Cody. Well, thank you, Ma'am. And I never, you 
know, worried coming over here. I didn't enjoy it a lot, but I 
never worried about it because I knew at the end of the day, we 
needed to tell the story. We needed to lay our cards on the 
table. And then cooler heads would prevail. But we are at an 
inflection point in our history.
    General Blum talked about the national will, basically, of 
this country. I do worry about that. But right now what we have 
learned in the last 10 years and what I have learned, and 
several of the former service chiefs and vices and leaders, is 
this: The All-Volunteer Force is absolutely the best thing this 
country has done in the military. It is absolutely precious. 
And the fact that we have got young men and women who last year 
and the year before after watching this war raised their right 
hand and said, ``You know what? I am going to go serve. This is 
important.''
    I worry about losing the All-Volunteer Force as we get into 
these fights about budgets and about entitlements versus 
defense and things like that. I can't remember a force--and I 
have been in a long, long time from the Vietnam War to now--I 
can't remember a more professional, patriotic, and dedicated 
force, as well as their families. And so I put that as job one. 
We have got to retain this All-Volunteer Force.
    Mrs. Davis. Can I ask you, General, do you believe that the 
discussions around military retirement could impact those 
decisions of the volunteer force----
    General Cody. Absolutely.
    Mrs. Davis [continuing]. And do you have any thoughts about 
what the committee is doing? The Defense Business Board is 
recommending, as you know, going to 401(k)s. Could you weigh in 
on that?
    General Cody. We don't know how to do 401(k)s. We don't 
know how to do any type of that management. We live checkbook 
to checkbook. I have seen the figures on it. Be very, very 
careful with this retirement program. I have seen numbers that 
say that only 13 percent of the people actually benefit from 
it. Yes, those are the people that lead. Those are the people 
we invested in. So we size an Army, we size an Air Force, it is 
a young man and woman's game. People come in and serve and then 
they go out and become great citizens.
    Mrs. Davis. I am sorry, my timing--so as we look as some of 
these personnel issues that are coming up then, and I don't 
know if any of you generals would like to comment, are there 
areas in personnel that we should be looking at that would help 
us be more sustainable, as people have suggested, of course, 
that it is not sustainable anymore?
    General Cody. I think your personnel costs will start going 
down as your footprint goes down because it is very expensive 
having troops in combat with combat pay and everything else. 
That will go down. We brought up save the benefit TRICARE [DOD 
health care program] 6 years ago, 4 years ago now. I think we 
ought to take a look at TRICARE again. I mean, I am retired 
now. I probably could pay a lot more for TRICARE than I am 
paying now and I probably should. We haven't raised it since 
1993 or 1994. I would be careful with it. I don't want to hurt 
young sergeants and everybody else who--we got to graduate it. 
But I think there are some savings in TRICARE as well as best 
practices, as General Jumper talked about, about reducing the 
cost of health care. Get industry involved to figure out how to 
use generic drugs and all kind of other things to be more 
efficient. But I think TRICARE is a place we could go. But to 
keep it, but run it more efficiently.
    Mrs. Davis. Okay. I don't know, Mr. Chairman, if General--
did you want to comment on that, General Blum?
    General Blum. I don't think I have anything to add beyond 
that. I think General Cody has identified some ideas worth 
exploring.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And I think in terms 
of looking at savings, it is not just a matter of reducing the 
budget, but it is also looking at areas that we have to 
actually increase spending. Cyber warfare. The safety of our 
satellites. And looking at, you know, the new sort of 
asymmetric weapons like the anti-ship ballistic missile that 
China is coming up with.
    But with that said, I do think that that there are 
opportunities in taking a look at our force structure and 
seeing what we could emphasize in the Guard and Reserve. I do 
think we need to look at certain benefit issues and I think you 
mentioned retirement and TRICARE and those things have to be 
looked at.
    One question I have of you, and I have got to tell you, I 
think that our young men and women today, I think we have the 
most extraordinary military in our history. I retired in 1994 
from a combination of Active Duty and Reserve time. But then 
came out of retirement 11 years later to go serve in Iraq in 
2005 and 2006. And so I got to meet them and I just was amazed 
which I looked back when I came in the military in 1972 to 
going back just a night and day difference of our forces.
    So one question I have is that--retention rate is very high 
right now. I mean, and I think because of the professionalism 
that we have, I think people want to stay in the organization. 
Obviously the economy is a factor, although I don't think it is 
the leading factor why people want to stay in. We have a very 
elite military. But we retained the same kind of up-and-out 
structure, a pretty rapid promotion system. Should we be 
slowing down that promotion system to allow more folks time in 
grade to be able to benefit from their experience, from their 
training that we paid for? Anybody like to answer that?
    General Cody. I think they have already done that, 
Congressman. They have made that adjustment. Clearly the 
promotions to major--captain to major were expedited only 
because we were growing the Force. In the Marine Corps and the 
Army, we are we are growing the Force and there were more 
slots. And so the last stuff I have seen, they have actually 
slowed it down to what you remembered back in the 1980s. And I 
think we also have to remember a captain who serves 1 year in 
combat has probably got as much experience as a captain who had 
3 years back not in combat. And so we balanced it very well. 
The best are still getting promoted, but we also grew the 
Force. And I think the promotions are going back to be settled 
where they are.
    I just want to make sure--I want to make sure that I think 
any tweaks for the retirement system need to be looked at very, 
very closely. And I do think that we could look at TRICARE, but 
I wouldn't mess with TRICARE for the Active Duty Force.
    Mr. Coffman. Okay. Let me ask you, we have, I think, still 
have 107,000 between Europe and South Korea--I think 79,000 in 
Europe, and I think it is 28,000 in South Korea. Only four out 
of, I think, the 28 NATO allies are spending the minimum 2 
percent that is required under the NATO charter, and I think 
two of them are probably doing it for the wrong purposes, 
Greece and Turkey. Are they relying too--I mean, can't we 
demonstrate our commitment to them by doing joint military 
operations as opposed to maintaining those forward bases?
    General Jumper. I think that is a very good observation, 
sir. And when I was talking about I think it is time to 
recalibrate our participation in certain alliances, that is 
probably the key one that needs to be reconsidered.
    I don't know that we need to have zero participation up 
front. And I firmly believe that we need to keep our contact 
with our NATO allies close. But I also think that we need to 
make sure that we take steps to ensure they are pulling their 
fair share of the weight as well. Clearly that has fallen off 
over the years.
    And in Asia, of course, I think that this is the next place 
that we really have to worry about. I am not sure how much I 
would modify over there based on how volatile the situation----
    Mr. Coffman. My time is running out, but on South Korea, do 
you think that at this point in time we ought to bring in the 
families for the 28,000 there at the $13 billion of 
construction costs?
    General Jumper. It can always be reviewed. I think if you 
are going to put the All-Volunteer Force people over there, you 
have to pay attention to the families. It is a great morale 
issue to separate the two. I think that that is the next area 
of danger we need to focus on, so I am not sure how much I 
would modify the Asian scenario.
    The Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. My apologies to the 
witnesses and others. With two big committees going at the same 
time, it is back and forth. I missed a lot of what you have to 
say and I am sorry about that.
    The testimony that you gave at the outset indicated that we 
really need to start with a strategic vision of where we are in 
the world today and what we are likely to have in the future. I 
have found a most interesting dialogue or opportunity for a 
dialogue with a document called ``A National Strategic 
Narrative,'' produced by two members of the Armed Forces, 
Porter and Mykleby, that talks about how we need to view 
ourselves in the world of the future, and that we no longer 
live in a bipolar world, but rather one that is multifaceted 
with threats that can emerge very, very rapidly from totally 
unknown places, for example, the Internet. And suddenly Egypt 
isn't the Egypt of yesterday, but it is something quite 
different.
    In that context, they suggested that we rethink how we use 
our military not as being the biggest, strongest dog on the 
street, but rather a big strong dog together with others, in 
other words, a collaborative world. I think we saw that in the 
Libya situation. Not as robust a NATO as we might like.
    I think what I would like to do is to introduce you 
gentlemen and the committee to that narrative and for us to 
think about that in the context of what we are going to have to 
go through, which is a reordering of the military.
    And what are the strategic strengths that we must preserve? 
You mentioned deterrence. Do we need 3,000 nuclear weapons or 
can we get by with 300 nuclear weapons that are properly 
deployed and safe, secure, and reliable? Those kinds of 
thinking. Do we need to have a triad, or is a dual mechanism 
necessary? Do we need a sixth fleet--or seventh fleet in the 
South China Sea? Or can we have a collaborative work with our 
partners?
    Those are the kind of things that I think we really need to 
look at now as we look at the reordering, the repositioning and 
the budget for the Defense Department.
    So I think what I would do is just, if you have seen that 
document, if you would like to comment on it, I would 
appreciate it. If you haven't seen it, my staff will be here in 
a moment. I had those documents on my desk and they carefully 
picked them up and took them away. But they will be back. So if 
you have seen the document, please comment.
    General Jumper. Yes, sir, I have seen the document. I 
haven't read the whole thing yet, but it reminded me of a 
session that I had with the great world diplomat, Lee Kuan Yew, 
the guy who founded Singapore and then ruled it for 35 years, 
and I was able to have a session with him at one time. And he 
said to me: America must never lose sight of its role as the 
world's great benign superpower. And this document reminded me 
of his remarks.
    And I think as we reconsider our position in the world, 
this is how we need to think of ourselves from a strategic 
point of view and decide exactly what that does mean. It means 
for sure being a force for stability in the world without being 
the world's policeman. It means rethinking how we do posture 
ourselves.
    Unfortunately, some of our experience with our allies has 
not been what it should be as you think about sharing the load, 
et cetera, because it becomes obvious very quickly to military 
people that the United States has the greatest capability, and 
it becomes very comfortable to others to live under that 
umbrella.
    So again--here I hearken again, let's look the at 
international affairs budget and what we do to engage with 
nations, again, as a force for stability in the world that 
indirectly, Mr. Chairman, does help the military if we pay 
attention to our diplomatic efforts around the world to engage 
nations. These things should fit together in different ways and 
not really compete with each other when it comes to these 
serious discussions of cuts.
    General Cody. I agree. I haven't read all of it, but when I 
read it, I hearken back to the QDDR [Quadrennial Diplomacy and 
Development Review] that the State Department put out which 
basically said we need to have a synergy between defense, 
diplomacy, and development. And quite frankly, I think we need 
to look at that as our full national security strategy. And I 
think what Secretary Clinton and Bob Gates started needs to be 
looked at.
    Mr. Garamendi. I would just wrap up in 10 seconds and say 
it seems to me that this is the fundamental starting point for 
what we are trying--what we must accomplish in this year and 
probably the next year ahead of us. That we take a look at this 
overarching way in which this Nation acts.
    One thing that we haven't yet brought up is our own 
economic strength, which is a major piece of this. And I know 
that in the discussions that we hear around here, we have to 
maintain the defense industry's ability to build things, and, 
yes, but at the same time we need to maintain our ability to 
make things in America. That is the overall manufacturing base 
and intellectual research base of this Nation.
    All of those things come together, it seems to me, in a way 
that is going to be different in the future. And that 
discussion ought to take place as we figure out what the 
Defense budget's going to be, both the overall budget as well 
as the elements within it. And gentlemen, I would love to 
engage you in a long cup of coffee at some point to discuss 
that with you.
    Mr. Chairman, thank you for the extra 1 minute 25 seconds.
    The Chairman. Thank you. General, I think I cut you off, 
you had some comment on Mr. Bartlett's question for Mr. 
LoBiondo about the Air National Guard fighter fleet 
transferring missions.
    General Jumper. I would just like to, first of all, comment 
as I did in my opening remarks about the superb relationship 
that the Air Force and the Air National Guard have maintained, 
and how well the Air National Guard stepped up to significantly 
increase the pace of duty and action during these past 10 
years.
    I sometimes wish that the enthusiasm that our Air National 
Guard shows for the flying missions also extended to and the 
same question would have been asked about other missions: 
Space, cyber and the support functions which are equally 
critical to our combat capability and which the Air National 
Guard is also very capable of taking on. Command and control, I 
should add to that too. In many cases, they do, I must say, 
they do. But we always seem to get down to the flying missions 
when we talk about comparisons and resources,
    And in fact, I think even Steve would admit that as the 
experienced--as much as we enjoy the experience of the Air 
National Guard and their pilots and especially their 
maintainers, it is also a core competency of our United States 
Air Force that we are able to get ourselves off the ground 
anywhere in the world in 72 hours to respond to whatever does 
emerge in an era where we have to anticipate these growing 
short-term surprises and be able to deal with them and react to 
them.
    But these are the issues that have to be discussed and 
balance is always the prime word. I don't let these--when I was 
the chief I did not let these discussions get out of hand or 
off balance or tilted one way or the other in favor of one or 
the other. But I also insisted that we have a healthy 
discussion about all of the missions that the Air Force is 
responsible for and sharing all of those in equal proportions.
    The Chairman. Thank you. Mr. Smith, do you any further 
comment?
    Mr. Smith. Nothing further.
    The Chairman. I just would like to say in wrapping this up 
that one thing we need to remember is we have already cut in 
the last year $465 billion going forward over the next 10 
years. That is already done. The chiefs are trying to figure 
out how that will be implemented. They have given their 
recommendations to the Secretary. He will be up here for a 
hearing next week and we will be able to talk some more about 
that.
    Ms. Davis had a question or comment, something about cuts 
should not be indiscriminatory. But if we get into the 
sequestration, that is just equal across the board. There will 
be no chance to weigh and let those who have the most 
experience figure out how best to utilize those cuts. That is 
just already done and there will be no discretion there.
    And so I have problems with that in two ways: The amount 
and the way it is done. And I think that until we have really 
digested the $465 billion, half of the cuts that we have done 
out of discretionary have come out of defense. And I just--
everybody needs to understand that. We are not saying that 
defense shouldn't be a part of this. It has been a heavy part. 
And this is the purpose of these hearings, is to give us a 
chance to let the experienced people tell us what these cuts 
are really going to mean when the rubber hits the road.
    So appreciate you taking the time and being with us today. 
And there will be more of these type hearings as we move 
forward. And one of the members mentioned he would like to have 
a long cup of coffee with you. I think I have felt that you are 
there whenever there is a request. So I think other members, if 
they feel like they are not getting enough out of these 
hearings, I encourage them to give you a call and have some of 
these other discussions. There should be no limit on gathering 
information, because these things are very, very important.
    With that, we will end this hearing. Thank you again very 
much for your service and for being here today. This committee 
is adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                            October 4, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 4, 2011

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

                 Former Service Chiefs and Vice Chiefs

                            October 4, 2011

    The House Armed Services Committee meets this morning to 
receive testimony on ``The Future of National Defense and the 
U.S. Military Ten Years After 9/11: Perspectives from Former 
Service Chiefs and Vice Chiefs.''
    This hearing is the third in our series of hearings to 
evaluate lessons learned since 9/11 and to apply those lessons 
to decisions we will soon be making about the future of our 
force. In the past month, we have heard from former Chairmen 
and a Vice-Chairman of the Joint Chiefs of Staff and also a 
panel of outside defense experts. Today, we will hear from a 
former Chief of Staff of the Air Force, a Vice Chief of Staff 
of the Army, and a former chief of the National Guard Bureau. 
In these capacities, our witnesses were directly involved in 
the management, training and equipping of our force. This 
panel's collective time of service to our nation is over 110 
years. Their knowledge of the decisionmaking process within the 
Department of Defense, as well as their cumulative years of 
service will provide this committee with vital information as 
we look to the future of our force.
    While we continue to make progress in Iraq and Afghanistan, 
and with the killing of high-profile terrorists including Osama 
bin Laden and most recently, Al Qaeda leader, Anwar al-Awlaki, 
I remain concerned that our Nation is slipping back into the 
false confidence of a September 10th mindset. Believing that we 
can maintain a solid defense that is driven by budget choices, 
not strategic ones, is a dangerous path for our national 
security.
    I am not arguing that the military can be held exempt from 
fiscal belt-tightening. Indeed, half a trillion dollars has 
been cut from DOD already--the military has absorbed about half 
of the deficit reduction measures enacted to date. But these 
cuts have happened in advance of the development of a new 
strategy for national defense and without any changes to the 
military's roles and missions.
    Even more concerning is that if the Joint Select Committee 
does not succeed in developing and passing another deficit 
reduction plan, an additional half a trillion dollars could be 
cut from our military automatically. It also remains to be seen 
whether or not additional cuts may be proposed by the 
Administration, even if the ``Super Committee'' is successful. 
News reports last week indicated that the President is 
proposing further cuts to defense--again, driven by math, not 
strategy.
    But all this talk about dollars doesn't translate well into 
actual impacts on the force and risk to our Nation. I hope our 
witnesses today can help us understand, based on the lessons of 
the last 10 years, what strategic choices we face in the 
current global security environment and how further cuts to the 
military could shape those choices.
    The U.S. military is the modern era's pillar of American 
strength and values. In these difficult economic times, we 
recognize the struggle to bring fiscal discipline to our 
Nation. But it is imperative that we focus our fiscal restraint 
on the driver of the debt, instead of the protector of our 
prosperity. With that in mind, I look forward to hearing from 
our witnesses today.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

                 Former Service Chiefs and Vice Chiefs

                            October 4, 2011

    I would like to thank the witnesses for appearing here 
today. We are in a time of significant uncertainty concerning 
the budget, and the input and advice provided by General 
Jumper, General Cody, and Lieutenant General Blum will be 
extremely helpful in understanding the impact of potential cuts 
on the Services.
    Our country faces a long-term, systemic budget dilemma--we 
don't collect enough revenue to cover our expenditures. 
Currently, we must borrow about 40 cents for every dollar the 
Federal Government spends. This problem must be addressed from 
both ends--spending will have to come down, and we're going to 
have to generate new revenues.
    Like many, if not most, of our members here, I share the 
view that large, immediate cuts to the defense budget would 
have substantially negative impacts on the ability of the U.S. 
military to carry out their missions. I am also deeply 
concerned about cuts to all non-entitlement spending, which 
bore the brunt of the recent deficit deal. Furthermore, if the 
``Super Committee'' fails to reach a deal, then cuts through 
sequestration will only impose deeper and more dangerous cuts 
to our military and non-entitlement spending such as 
infrastructure, education and homeland security.
    I believe that we can rationally evaluate our national 
security strategy, our defense expenditures, and the current 
set of missions we ask the military to undertake and come up 
with a strategy that requires less funding. We on this 
committee like to say that strategy should not be driven by 
arbitrary budget numbers, but by the same token not considering 
the level of available resources when developing a strategy is 
irresponsible and leads inevitably to asking our military to 
undertake jobs for which we do not resource them. We can, I 
believe, spend smarter and not just more.
    It is also important that we address the revenue side of 
our budget problem. Recently, some of my colleagues on this 
committee issued dire warnings about the potential impacts of 
additional defense budget cuts. I share their concerns, and 
that is why we must consider raising additional revenue. In 
order to avoid drastic cuts to our military and other important 
programs, revenue must be on the table.
    It is my hope that this hearing will help remind everyone 
here that we have to make some serious choices. Our budget 
problems must be looked at in a comprehensive manner. If we are 
serious about not cutting large amounts of funding from the 
defense budget, something else has to give. Large, immediate, 
across-the-board cuts to the defense budget, which would occur 
under sequestration, would do serious damage to our national 
security. In order to avoid large cuts to the defense budget, 
we're going to have to stop repeating ideological talking 
points and address our budget problems comprehensively, through 
smarter spending and new sources of revenue.
    Thank you again, Mr. Chairman, for holding this hearing. 
And thank you to our witnesses for appearing here today.

[GRAPHIC] [TIFF OMITTED] 71443.001

[GRAPHIC] [TIFF OMITTED] 71443.002

[GRAPHIC] [TIFF OMITTED] 71443.003

[GRAPHIC] [TIFF OMITTED] 71443.004

[GRAPHIC] [TIFF OMITTED] 71443.005

[GRAPHIC] [TIFF OMITTED] 71443.006

[GRAPHIC] [TIFF OMITTED] 71443.007

[GRAPHIC] [TIFF OMITTED] 71443.008

[GRAPHIC] [TIFF OMITTED] 71443.009

[GRAPHIC] [TIFF OMITTED] 71443.010

[GRAPHIC] [TIFF OMITTED] 71443.011

[GRAPHIC] [TIFF OMITTED] 71443.012

[GRAPHIC] [TIFF OMITTED] 71443.013

[GRAPHIC] [TIFF OMITTED] 71443.014

[GRAPHIC] [TIFF OMITTED] 71443.015

[GRAPHIC] [TIFF OMITTED] 71443.016

[GRAPHIC] [TIFF OMITTED] 71443.017

[GRAPHIC] [TIFF OMITTED] 71443.018

[GRAPHIC] [TIFF OMITTED] 71443.019

[GRAPHIC] [TIFF OMITTED] 71443.020

[GRAPHIC] [TIFF OMITTED] 71443.021

[GRAPHIC] [TIFF OMITTED] 71443.022

[GRAPHIC] [TIFF OMITTED] 71443.023

[GRAPHIC] [TIFF OMITTED] 71443.024

                                  <all>

</pre></body></html>
